<html>
<title> - BANKING ON YOUR DATA: THE ROLE OF BIG DATA IN FINANCIAL SERVICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     BANKING ON YOUR DATA: THE ROLE
                   OF BIG DATA IN FINANCIAL SERVICES

=======================================================================

                                HEARING

                               BEFORE THE

                   TASK FORCE ON FINANCIAL TECHNOLOGY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 21, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-69
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                               __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
 42-477 PDF                  WASHINGTON : 2020                     
           
--------------------------------------------------------------------------------------
 
 

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                   TASK FORCE ON FINANCIAL TECHNOLOGY

               STEPHEN F. LYNCH, Massachusetts, Chairman

DAVID SCOTT, Georgia                 TOM EMMER, Minnesota, Ranking 
JOSH GOTTHEIMER, New Jersey              Member
AL LAWSON, Florida                   BLAINE LUETKEMEYER, Missouri
CINDY AXNE, Iowa                     FRENCH HILL, Arkansas
BEN McADAMS, Utah                    WARREN DAVIDSON, Ohio
JENNIFER WEXTON, Virginia            BRYAN STEIL, Wisconsin
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 21, 2019............................................     1
Appendix:
    November 21, 2019............................................    31

                               WITNESSES
                      Thursday, November 21, 2019

Cardinal, Don, Managing Director, Financial Data Exchange (FDX)..    10
Gilliard, Christopher, Professor of English, Macomb Community 
  College, and Digital Pedagogy Lab Advisor......................     8
Kamara, Seny, Associate Professor of Computer Science, Brown 
  University, and Chief Scientist, Aroki Systems.................     6
Pozza, Duane, Partner, Wiley Rein................................    11
Saunders, Lauren, Associate Director, National Consumer Law 
  Center (NCLC)..................................................     4

                                APPENDIX

Prepared statements:
    Cardinal, Don................................................    32
    Gilliard, Christopher........................................    42
    Kamara, Seny.................................................    48
    Pozza, Duane.................................................    54
    Saunders, Lauren.............................................    62

              Additional Material Submitted for the Record

Lynch, Hon. Stephen:
    Written statement of the American Bankers Association........    83
    Written statement of the Credit Union National Association...    92
    Written statement of the Electronic Transactions Association.    94
    Written statement of the Financial Data and Technology 
      Association................................................    96
    Written statement of Fidelity Investments....................    99
    Written statement of Finicity................................   106
    Written statement of Plaid...................................   115
    Written statement of Public Knowledge........................   117
Hill, Hon. French:
    Written responses to questions submitted to Don Cardinal.....   122
McAdams, Hon. Ben:
    Written responses to questions submitted to Don Cardinal.....   124
    Written responses to questions submitted to Duane Pozza......   128
    Written responses to questions submitted to Lauren Saunders..   130

 
                         BANKING ON YOUR DATA:
                          THE ROLE OF BIG DATA
                         IN FINANCIAL SERVICES

                              ----------                              


                      Thursday, November 21, 2019

             U.S. House of Representatives,
                Task Force on Financial Technology,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The task force met, pursuant to notice, at 9:30 a.m., in 
room 2128, Rayburn House Office Building, Hon. Stephen F. Lynch 
[chairman of the task force] presiding.
    Members present: Representatives Lynch, Scott, Gottheimer, 
Lawson, Axne, McAdams; Emmer, Luetkemeyer, Hill, Davidson, and 
Steil.
    Also present: Representatives Tlaib, Gonzalez of Ohio, and 
Hollingsworth.
    Chairman Lynch. Good morning. The Task Force on Financial 
Technology will now come to order.
    Without objection, the Chair is authorized to declare a 
recess of the task force at any time. Also, without objection, 
members of the full Financial Services Committee who are not 
members of the task force are authorized to participate in 
today's hearing.
    Today's hearing is entitled, ``Banking on Your Data: The 
Role of Big Data in Financial Services.''
    Before we get started, I want to take a moment to recognize 
our new ranking member, Mr. Tom Emmer, from the great State of 
Minnesota. Welcome. Mr. Emmer has a keen interest in the 
fintech space and has been active in this area for some time, 
and I am looking forward to learning from and working with him 
going forward.
    I also want to thank my friend and colleague, Mr. French 
Hill of Arkansas, who escaped this task force, and is now the 
ranking member on the National Security Subcommittee, which I 
Chair. I wish him the best of luck in that endeavor, and I am 
glad to still have his voice on this task force.
    I now recognize myself for 4 minutes to give an opening 
statement.
    In July, our task force examined the potential benefits and 
the risks associated with the use of alternative data in credit 
underwriting. We noted that the use of alternative data can 
expand access to credit for those who might otherwise be turned 
away from lenders. And we also discussed the possibility of 
that data being linked to disparate impacts on the unfair 
credit decisions that might be made.
    But in financial services, the use of data goes far beyond 
consumer or small business lending. The rise of financial and 
consumer data has enabled an explosion of financial products 
and services for consumers to use. Because of the volume and 
transferability of this data, consumers have access to 
applications to manage their finances, change their savings 
habits, or pay their friends in a way that wasn't possible a 
few years ago.
    However, the prevalence of financial applications has led 
to more and more personal financial data being transmitted and 
held outside of the traditional financial system. While most 
companies want to protect their customers' data, this trend has 
caused many to question whether our existing statutory 
protections are indeed adequate for the new circumstances.
    Consumers rightly expect their financial data to be kept 
secure by institutions and applications they use, but 
unfortunately, their expectations don't always match reality. 
Large-scale breaches of consumer data, like those at Equifax 
and Capital One, serve as a vivid reminder that even legacy 
institutions can be vulnerable to security lapses. They also 
remind us how painful it can be for a consumer to have their 
personal information stolen through no fault of their own.
    As consumers use their financial data in more ways and in 
more places, it becomes increasingly difficult for them to know 
exactly how their data is being used and, making it worse, many 
applications come with lengthy terms-of-service agreements 
which are not conducive to being read on the mobile devices 
consumers are using to agree to them. So we all tend to just 
click, ``I agree,'' without realizing the consequences.
    According to recently released research by the Clearing 
House, 79 percent of users said they did not read all the terms 
and conditions, and only 11 percent said they both read and 
understood them. Most of those people are lying. Further, the 
technical aspects of data security are opaque and complex. This 
makes it even more important for Congress and our financial 
regulators to get this right.
    The future of connected or open banking, the process of 
transmitting the data necessary to enable the success of these 
financial applications, depends on the industry's ability to do 
so in a safe and secure way. While there is undeniable 
potential in this space, today we will discuss some of the 
questions and concerns about how to achieve the benefits, while 
mitigating consumer risk.
    We need to know if everybody who handles financial data is 
adequately protecting the privacy of their users. How do we 
ensure consumers aren't being misled about the acquisition and 
use of their data? And how do we empower consumers so they are 
in control of their data?
    Today's discussion has never been more relevant, and I look 
forward to hearing our witnesses' testimony, and input from my 
colleagues.
    With that, I recognize my friend, the new ranking member, 
Mr. Emmer, for 5 minutes for an opening statement.
    Mr. Emmer. Thank you, Mr. Chairman. Thank you for your warm 
welcome. As you said, be careful what you wish for, right? You 
might just get it. I want to thank you for convening this 
hearing as well.
    As the new FinTech Task Force ranking member, I look 
forward to working with you to bring more education and 
awareness to Congress about the new innovations in financial 
services. I very much appreciate this opportunity to help lead 
the task force in an effort to better educate Members of 
Congress on the emerging developments in technology that 
already have and certainly will continue to influence the 
entire financial services industry.
    Today's hearing is about data, an individual's ability to 
control their data, and the practices that are utilized with 
this data. The Majority titled this hearing, ``Banking on Your 
Data,'' and I expect we will have a lot of discussion today 
relating to privacy and security concerns, which are very 
important. But let's keep in mind that data can also benefit 
consumers and can empower individuals to own their own data and 
to leverage it when seeking services from companies.
    The amount of data being generated is astounding. It is 
estimated that every day, we create 2.5 quintillion bytes of 
data, and that 90 percent of the data in the world today has 
been created in just the last 2 years. Not surprisingly, given 
Congress' inability to keep up with new technology, a TED Talk 
about how big data can produce insights on the work of Members 
of Congress and their interactions with each other was already 
featured more than 3 years ago.
    As we have seen with the internet, information can be 
power. And when we are generating this amount of data, the 
owners and possessors of that data may gain that power. With 
that power may come increased responsibility and may impose an 
ethical duty use the data properly. Many companies have already 
realized these duties on their own and are benefiting from 
listening to their customers' demands. Standard-setting bodies 
like Financial Data Exchange are already bringing together 
fintech companies to create standards and limits to accessing 
data.
    I appreciate, again, this opportunity for Members to learn 
about data practices and to increase the level of knowledge in 
Congress about the policies that companies use to innovate and 
to develop better services for their customers.
    A broad unspecific definition of ``big data'' could also 
include the work that is already underway to digitize the 
services that the financial services industry already offers to 
all of us. This is the future, and there is no going back from 
here. We have seen this in several industries already, like 
music and other commerce. The future is in digital services. 
The question is, how do we empower the individual, as opposed 
to the government, to make the choices that are best for them?
    I am hopeful this hearing will educate Members of Congress 
on the downside of big data but also about the benefits of 
data. Our job is to make sure that data helps empower the 
consumer and enables them to know what they are disclosing, 
when, and where. I hope this is a conversation more than a 
critique, and at the end of the day, I hope this session is 
informative for members of this committee.
    And I thank the chairman again for holding the hearing and 
looking at this issue objectively. I look forward to working 
together in a nonpartisan fashion to help Americans realize the 
benefits of this digital revolution and the help it can provide 
to each and every one of us. And I yield back.
    Chairman Lynch. The gentleman yields back, and I thank him 
for his remarks. And I do believe that this is an area where we 
can have great bipartisan cooperation and success.
    Today, we welcome the testimony of our accomplished panel 
of witnesses. First, Ms. Lauren Saunders is associate director 
of the National Consumer Law Center (NCLC). NCLC is 
headquartered in Boston, in part of my district. And this year, 
it is celebrating 50 years of advocating for consumer justice 
and economic security.
    Second, Dr. Seny Kamara is associate professor of computer 
science at Brown University, and chief scientist at Aroki 
Systems. His primary research focus has been cryptography and 
its applications to everyday problems in privacy and security. 
And at Aroki, he helps design encrypted data management 
systems.
    Third, Dr. Christopher Gilliard is professor of English at 
Macomb Community College, and lab advisor at Digital Pedagogy. 
His work focuses on privacy and technology policy and the risk 
of discriminatory practices in algorithmic decision-making.
    Fourth, Mr. Don Cardinal is managing director of the 
Financial Data Exchange, FDX, which is a nonprofit working 
group to set an industry standard for the secure transmission 
of sensitive financial data. FDX is an independent subsidiary 
of the Financial Services Information Sharing and Analysis 
Center.
    And finally, Mr. Duane Pozza is a partner at Wiley Rein, 
where he advises on issues of privacy and data governance. 
Prior to joining Wiley Rein, Mr. Pozza was an Assistant 
Director in the Division of Financial Practice at the Federal 
Trade Commission's Bureau of Consumer Protection.
    I want to thank you all for being here today.
    Our witnesses are reminded that your oral testimony will be 
limited to 5 minutes. And without objection, your written 
statements will be made a part of the record.
    Ms. Saunders, you are now recognized for 5 minutes for an 
oral presentation of your testimony.

  STATEMENT OF LAUREN SAUNDERS, ASSOCIATE DIRECTOR, NATIONAL 
                   CONSUMER LAW CENTER (NCLC)

    Ms. Saunders. Thank you.
    Chairman Lynch, Ranking Member Emmer, members of the task 
force, thank you for inviting me to testify today on behalf of 
the low-income clients of the National Consumer Law Center.
    I am going to focus my testimony today on the growing use 
of data aggregators to access consumers' bank account and other 
types of account transaction data, but my comments will also 
have applicability to other forms of data.
    The use of consumers' transaction data has the potential to 
help consumers in a number of ways: to improve access to 
affordable forms of credit; to prevent fraud; to encourage 
savings; and to help consumers better manage their finances. 
Companies are using transaction data to address problems that 
banks are not and to encourage banks to improve their own 
services.
    I am especially intrigued by the use of cash flow data, 
which can help assess whether the consumer regularly has 
sufficient residual income at the end of the month to handle an 
additional expense. Cash flow data may especially help those 
with limited credit histories or those who have recovered from 
a temporary setback that is still reflected on their credit 
report. Cash flow data is currently only being used with 
consumers' explicit permission and generally to improve access 
or pricing, but I am concerned whether transaction data may 
become more routinely added to already robust credit reports, 
may be used to increase pricing, or may be monetized by the 
credit bureaus for other uses. These uses should be prohibited.
    I appreciate that this data is being used today with 
consumer permission, but we should not put too much stake on 
consumer permissioning, which may be no more voluntary than 
clicking, ``I agree,'' or saying yes to a potential employer 
who asks to review your credit report.
    The intensely detailed personal and sensitive data inside 
consumers' accounts could also be used for less beneficial 
purposes. It may help predatory lenders refine their ability to 
make and collect unaffordable loans or it could enable 
targeting of consumers for harmful products. Transaction data 
can also be fed into algorithms and machine learning that may 
have results that lead to discriminatory impacts.
    The use of data aggregators also poses concerns regarding 
security, privacy, and compliance with the Fair Credit 
Reporting Act (FCRA). A number of efforts are underway to 
address many of these issues, including the work of my fellow 
panelist, Mr. Cardinal from FDX, which we are in the process of 
joining. We support these voluntary efforts and dialogue, but 
ultimately, consumers cannot be confident that their data will 
be used appropriately unless the law clearly protects them 
across these different dimensions industrywide.
    First, security and protection. We need enhanced data 
security requirements and Federal supervision of entities that 
store significant amounts of consumer data.
    Second, we need strong privacy laws that impose substantive 
limits on the use of information in ways that consumers would 
not expect, that ensure consumer choice and control are 
meaningful, and that do not preempt stronger State protections 
that may address new problems not yet addressed on the Federal 
level.
    Third, we need to address misinterpretations of the Fair 
Credit Reporting Act by courts. New forms of information are 
essentially a consumer report that--if they are used for credit 
or other FCRA purposes, and consumers have a right to know what 
information is being used about them, to demand accuracy, to 
obtain corrections, and to be told if the information leads to 
adverse consequences.
    Fourth, we must actively look for and prevent 
discriminatory impacts in the forms of new data. As recent news 
shows, computers can discriminate too.
    To paraphrase the words of one fintech lending club, the 
disparate impact regime is an innovation-friendly approach that 
addresses concerns about discriminatory impact, while flexibly 
accommodating innovations without onerous compliance. Beyond 
fair lending, we need laws to prevent discriminatory impact in 
areas other than credit.
    Finally, the Consumer Financial Protection Bureau (CFPB) 
can and should play a bigger role by supervising data 
aggregators for compliance with all laws within their 
jurisdiction, which should be expanded to include privacy and 
data security standards.
    Thank you for inviting me to testify. I look forward to 
your questions.
    [The prepared statement of Ms. Saunders can be found on 
page 62 of the appendix.]
    Chairman Lynch. Thank you very much.
    Dr. Kamara, you are now recognized for 5 minutes.

   STATEMENT OF SENY KAMARA, ASSOCIATE PROFESSOR OF COMPUTER 
 SCIENCE, BROWN UNIVERSITY, AND CHIEF SCIENTIST, AROKI SYSTEMS

    Mr. Kamara. Chairman Lynch, Ranking Member Emmer, and 
distinguished members of the Task Force on Financial 
Technology, I appreciate the opportunity to testify at today's 
hearing on the role of big data in financial services. I will 
speak about how data is transforming the financial industry and 
how this transformation holds great promise but, unless it is 
carefully guided, also has the potential to erode consumer 
privacy and increase discrimination.
    The financial industry is using new data sources called 
alternative data. For example, credit reporting agencies are 
using data about utility bills to create new credit scores. 
Insurance companies are using internet of things (IoT) data 
from homes and cars to better predict risks. Insurance 
companies have used Facebook posts and psychometric tests to 
assess people's risk profiles. Payday lending apps track 
location to determine how much time their users spend at work. 
Microlending apps are using location data, social media contact 
lists, and the behavior of Facebook friends to estimate 
people's creditworthiness. An app made in California that 
operates in Kenya even accesses call history under the belief 
that people who regularly call their mothers are more likely to 
repay their loans.
    In addition to leveraging new sources of data, the 
financial industry is processing data in new ways using 
machine-loading models to make automated decisions quickly and 
at scale. While classical algorithms are designed by domain 
experts and expresses a series of rules and explicit choices, 
machine-loading models are produced by algorithms that learn 
from data. The models produced in this manner can be very 
effective in certain contexts but suffer from important 
limitations.
    The first is a lack of transparency. We often do not know 
and, therefore, cannot explain why a machine-loading model 
makes a particular decision. This is a serious concern in the 
context of credit since the Equal Credit Opportunity Act (ECOA) 
and the Fair Credit Reporting Act (FCRA) require creditors to 
explain the reason an application was denied.
    The second important limitation of machine-loading models 
is bias in decision-making. While this kind of algorithmic 
discrimination has been well-publicized, it is important to 
note that we are only in the very early stages of understanding 
the behavior of these algorithms. In fact, in that space, there 
are currently more questions than answers, so it is important 
to tread carefully.
    Fintech apps can make use of multiple sources of consumer 
data, ranging from financial records provided by a bank to 
location data provided by a mobile device. Traditionally, 
financial apps have shared data through a practice called 
screen scraping. It is widely accepted that this practice is 
substandard from a privacy and security perspective, which has 
motivated the financial industry to develop Application 
Programming Interfaces (APIs).
    Roughly speaking, an API is a standard interface between 
apps that allows for easier interoperability and improved 
security. APIs are a considerable improvement over screen 
scraping, but they are far from enough to guarantee consumer 
privacy. With an API-based design, apps can still access, lose, 
exploit, and abuse raw user data, and as long as consumers have 
to trust data-hungry apps that scour their sensitive data under 
vague privacy policies, they will never have real privacy.
    But what if consumers did not have to give up their data in 
order to benefit from financial and technological innovations? 
What if financial apps and services never had to see raw data? 
This might sound impossible but, in fact, it is possible. Over 
the last 30 years, cryptography researchers in academia and in 
industry labs have developed a wide array of cryptographic 
techniques to process encrypted data. This gives us the ability 
to run algorithms, including machine-loading algorithms, over 
encrypted data, to search through encrypted files, and to query 
encrypted databases, all without ever decrypting the data.
    The set of privacy technologies, which includes secure 
multiparty computation, private set intersection, homomorphic 
encryption, and encrypted search algorithms, can enable truly 
private data processing.
    I want to stress here that this is not science fiction. 
These technologies are already in use today. By leveraging 
these advances in cryptography, financial technologies could 
deliver on their promise to improve the financial health of 
their customers without them having to sacrifice their privacy.
    The financial industry is being transformed by technology, 
and in the wake of this transformation, it is easy to get 
carried away on a wave of technological optimism. As a computer 
scientist, I believe in the power of technology, but I am also 
acutely aware of its potential harms. As a cryptographer, I 
worry deeply about the erosion of privacy that these financial 
apps and services can cause.
    We are all aware of the constant occurrence of data 
breaches, of the weaponization of private data to micro-target 
people and affect their behaviors. Do we want another Equifax? 
Do we want another Cambridge Analytica? Moving fast and 
breaking things is not sound engineering practice, and it is 
not sound policy. It is imperative that we proceed carefully 
and that we oversee this transformation with strong privacy 
laws and strong privacy technologies.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Dr. Kamara can be found on page 
48 of the appendix.]
    Chairman Lynch. Thank you, Dr. Kamara.
    Dr. Gilliard, you are now recognized for 5 minutes.

STATEMENT OF CHRISTOPHER GILLIARD, PROFESSOR OF ENGLISH, MACOMB 
      COMMUNITY COLLEGE, AND DIGITAL PEDAGOGY LAB ADVISOR

    Mr. Gilliard. Chairman Lynch, Ranking Member Emmer, and 
members of the task force, thank you for inviting me to appear 
before you and provide testimony.
    My name is Dr. Chris Gilliard, and I have spent the last 6 
years studying, teaching, and writing about digital privacy and 
surveillance. I focus on the ways that digital technologies 
perpetuate and amplify historical systems of discrimination.
    Too often, digital technologies render systems invisible 
and inscrutable under the guise of proprietary code, black box 
algorithms, or artificial intelligence. There are now countless 
documented examples of algorithmic discrimination, data 
breaches, violation of consumer privacy, and extractive 
practices on the part of platforms.
    Moving forward, the onus for addressing these problems 
should be shifted onto companies so that, before they move 
their product to market, they provide evidence that they will 
not bring harm to the consumer, much in the same way food and 
drug safety operate now.
    It may not be possible or useful to define the distinction 
between financial big data and all other data. Financial big 
data plays a role not only in finance, insurance, and real 
estate, but also in employment, transportation, education, 
retail, and medicine. In addition, third-party data brokers 
accumulate all manner of data to the point that even if there 
are categories of data that are protected, processing massive 
amounts of data often creates the existence of proxies that 
allow for discrimination against protected classes within or 
among systems that may not appear to be financial.
    The primary reasons that many remain unbanked are because 
of historical inequality. While new forms of banking and credit 
may provide access to systems those people have traditionally 
not had access to, many of these technologies also offer these 
benefits in exchange for people's privacy or create opaque 
systems that offer consumers little opportunity for redress.
    It is telling that the Apple Goldman Sachs card received so 
much interest, because opaque algorithms affect marginalized 
populations all the time. Yet, they do not have the reach and 
power to trigger massive media attention and an investigation 
by the State. For rich folks, algorithmic opacity may mean 
being denied a larger credit limit. For the poor, this may mean 
paying for medicine, shelter, or food.
    The notion that companies like Facebook, Google, or Amazon 
are entering into banking in order to benefit the unbanked or 
people who do not have access to traditional credit markets is 
absurd on its face. As one recent report stated, for Google, 
the bank partnerships will give the tech behemoth a better 
ability to show advertisers how marketing dollars spent on its 
system can drive purchases.
    There are two crucial frameworks for understanding these 
technologies and their impacts on marginalized communities: 
digital redlining; and predatory inclusion. Digital redlining 
is the creation and maintenance of technology practices that 
further entrench discriminatory practices against already 
marginalized groups. One example would be that Facebook ad 
targeting could be used to prevent Black people from seeing ads 
for housing.
    ``Predatory inclusion'' is a term used to refer to a 
phenomenon whereby members of a marginalized group are offered 
access to a good, service, or opportunity from which they have 
historically been excluded, but under conditions that 
jeopardize the benefits of that access. The process of 
predatory inclusion is often presented as providing 
marginalized individuals with opportunities for social and 
economic progress; but in the long term, predatory inclusion 
reproduces inequality and insecurity for some, while allowing 
already dominant social actors to derive significant profits.
    As an example, we might look at the report on the cash 
advance app Earnin, which offers loans for which users are able 
to tip the app. As reported in the New York Post, if the 
service was deemed to be a loan, the $9 tip suggested by Earnin 
for a $100, 1-week loan, would amount to a 469 percent APR.
    As Princeton Professor Ruha Benjamin has argued, our 
starting assumption should be that automated systems will 
deepen inequality unless proven otherwise. Because of how 
algorithms are created and trained, historical biases make 
their way into systems even when computational tools don't use 
identity markers as metrics for decision-making.
    Further, the notions of consent, notice consent, or 
informed consent as they are currently constructed are not 
sufficient for a number of reasons. Privacy policies mainly 
serve to protect companies. Credit scoring companies operate 
without the express consent of the consumers they purportedly 
serve. Data is extracted, collected, combined, processed, and 
used in ways that go beyond the stated purpose to provide 
consumers. There is often limited accountability for when they 
have been irresponsible with consumer data. Companies rarely 
disclose and consumers even more rarely understand the full 
range and uses for their data.
    We must reject the notion that regulations stifle 
innovation, as those harmed during innovation phases tend to be 
the most marginalized, and only later are policies addressed 
with no repairing of harms. The idea that corporate innovation, 
rather than the rights of historically marginalized groups, is 
an interest that Congress must protect turns ideas of 
citizenship and civil rights upside down. That these systems 
are proprietary often make the harms more difficult to detect.
    Thank you.
    [The prepared statement of Dr. Gilliard can be found on 
page 42 of the appendix.]
    Chairman Lynch. Thank you, Dr. Gilliard.
    Mr. Cardinal, you are now recognized for 5 minutes.

 STATEMENT OF DON CARDINAL, MANAGING DIRECTOR, FINANCIAL DATA 
                         EXCHANGE (FDX)

    Mr. Cardinal. Chairman Lynch, Ranking Member Emmer, and 
members of the task force, thank you for the opportunity to 
offer testimony at this hearing. My name is Don Cardinal. I am 
the managing director of Financial Data Exchange (FDX).
    FDX was formed just a little over a year ago as an 
industry-led collaboration that includes financial 
institutions, financial data aggregators, fintechs, industry 
organizations, consumer advocacy groups, and permission users 
of financial data. The mission of FDX is to unify the financial 
services industry around a common and interoperable royalty-
free standard for the secure sharing and convenient sharing of 
financial data with financial technology applications, fintech 
apps. We are guided by five core principles: control; access; 
transparency; traceability; and, of course, security.
    Over the last decade, technological innovations in 
financial services have empowered consumers to better 
understand where and how they spend their money, increase their 
credit scores, prepare their taxes, verify accounts and 
balances, and aggregate disparate financial accounts. While 
consumers have benefited immensely from these innovations, they 
primarily come through a mechanism known as screen scraping, 
and only done through the sharing of consumers' IDs and 
passwords at their financial institution.
    Screen scraping is the automated process of collecting the 
text that appears on a website for the purposes of another 
application. For example, online banking websites display 
customers' account balances and transactions, and this data can 
be retrieved through a permission fintech app or a data 
aggregator by an automated login on the customers' behalf and 
present that data in some other application. And while screen 
scraping has provided a useful avenue for consumers to use and 
share their own financial data, it is very inefficient and can 
lead to poor data quality. This technology also places undue 
stress on financial institutions' tech stack through the sheer 
volume of automated logins.
    And, finally, the needed sharing of sensitive login 
credentials and the lack of consumer control over the amount of 
data they share with other parties means it is really time to 
move on from screen scraping.
    In recognition of these challenges, FDX was formed to 
promote a better way forward, namely, moving the financial 
services industry away from screen scraping and to the adoption 
of the use of APIs for access for consumers' financial data. 
Now, API simply means ``application programming interface'', 
and in layman's terms, it is just a way for computers to talk 
to each other with a common format. They also make consumer-
permission data sharing easier, more accurate, and more secure, 
because they lay out in detail the rules for how to request 
data and exactly what data will be returned.
    Our chosen standard is aptly named the FDX API. It allows 
for users within the financial data ecosystem to be security-
authenticated but without sharing or storing of the login 
credentials with third parties. So instead of a fintech or 
aggregator logging in on behalf of a customer with their shared 
credentials, an API allows the consumer to log in themselves, 
and be authenticated by their own financial institution. It 
gives the consumer the ability to permission their data for the 
chosen app. In fact, through the broad adoption of the FDX API, 
screen scraping will eventually cease, but the flow of user 
permission data will encounter less friction and be even more 
secure and reliable than ever.
    So with that overview out of the way, I want to use my 
remaining time to highlight a few key points for the task force 
this morning, and I have attempted to expand upon these in my 
written testimony.
    First, the only consumer financial data that will be 
accessed with the FDX API is that which the consumer has 
expressly consented to, and permission to share with fintech 
apps. This eliminates access for so-called data brokers who 
collect vast amounts of data, often without consumers' 
knowledge or consent.
    Second, FDX is working towards specific-use cases for 
fintech apps to minimize the amount of data that consumers 
require to share for a given use. While screen scraping 
currently allows really any data on a consumer's website to be 
collected, defined-use cases through the FDX API limits the 
collection of data to only that which is needed to fulfill a 
specific purpose; and by minimizing data in play, you maximize 
privacy.
    And, third, FDX represents the entire consumer financial 
services ecosystem, which includes small fintechs, local banks, 
credit unions, all the way up to the largest financial 
institutions, and consumer advocacy groups. Further, the FDX 
API provides a framework necessary to provide scaleable 
technology solutions so that even the smallest financial 
institutions will be offered the same goods and services as the 
largest financial institutions, but at a fraction of the cost. 
The FDX API is, after all, royalty-free in perpetuity for all 
parties.
    In sum, FDX represents the financial services ecosystem 
coming together to put the consumer in the driver's seat 
regarding the use and sharing of their own data. Demand has 
been a leading force for this massive innovation that has taken 
place, and we believe the entire financial system ecosystem is 
best positioned to ensure that these consumers are empowered 
but have the tools to share and use their own data in the most 
secure manner possible.
    Thank you for the opportunity to speak this morning.
    [The prepared statement of Mr. Cardinal can be found on 
page 32 of the appendix.]
    Chairman Lynch. Thank you, Mr. Cardinal.
    Mr. Pozza, you are now recognized for 5 minutes.

         STATEMENT OF DUANE POZZA, PARTNER, WILEY REIN

    Mr. Pozza. Chairman Lynch, Ranking Member Emmer, and 
members of the task force, thank you for the opportunity to 
appear today to discuss the role of big data in financial 
services.
    I am a partner at Wiley Rein, where my practice includes 
advising companies on the legal and regulatory framework for 
collecting, using, and managing consumer data, including in 
financial services and counseling on U.S. and global privacy 
laws. This includes emerging regulatory approaches around 
machine-learning technologies which depend on large and 
sophisticated data sets. I previously worked at the Federal 
Trade Commission on financial technology issues.
    Data-driven financial services hold enormous potential to 
improve consumers' financial lives. Companies can use consumer 
data responsibly to expand access to credit, provide customized 
financial advice, detect and prevent fraudulent behavior, and 
provide financial services at a lower cost, among other 
advantages. Companies are already using large and robust data 
sets to accomplish these objectives, and the development of 
machine learning and AI technologies will further advance what 
these technology innovators can accomplish.
    Companies using consumer data in innovative ways for 
financial decisions operate in an area that already has many 
significant laws and regulations on the books and multiple 
regulatory authorities. Companies must comply with well-
established financial services laws, many of which implicate 
the use of consumer data, in addition to Federal Trade 
Commission (FTC) guidance on data privacy and security. 
Applicable Federal laws include the Fair Credit Reporting Act, 
the Equal Credit Opportunity Act, the Gramm-Leach-Bliley Act, 
and the FTC Act Section 5 authority and prohibitions against 
deceptive or unfair practices, all of which also apply in the 
context of big data.
    The companies must also comply, to varying degrees, with 
consumer privacy laws that reach across sectors, both on the 
international level--for example, the European Union's General 
Data Protection Regulation--and on the State level--for 
example, the California Consumer Privacy Act. State laws, in 
particular, threaten to create a piecemeal compliance framework 
and burden businesses that already have substantial compliance 
obligations, including in the area of big data.
    The experience with California's law illustrates some of 
the challenges that companies face. As consumer data is 
increasingly used to provide better financial services, it is 
important to carefully consider consumer expectations and 
preferences around use of their information and weigh the 
benefits that better financial services can bring and the cost 
of added regulation.
    The use of advanced data for credit decision-making is 
particularly promising. Large data sets can enable lenders to 
better analyze credit risk and potentially expand access to 
credit to those who find it difficult to obtain credit when 
evaluating using traditional credit models. Many consumers are 
thin-file or no-file consumers who lack an adequate credit 
history to generate a reliable credit score, and others have 
relatively low scores that do not accurately reflect their 
level of creditworthiness.
    The nonprofit, FinRegLab, recently released the results of 
a promising study that illustrates the ability of large-scale 
data analytics to responsibly expand access to credit without 
raising issues related to bias. FinRegLab analyzed data from 
six non-bank financial services providers that used cash flow 
information as part of their credit decision-making. The 
organization study concluded that participants appeared to be 
serving substantial numbers of borrowers who may have 
historically faced constraints on their ability to access 
credit and, in regard to fair lending, that the degree to which 
the cash flow data predicted credit risk appeared to be 
relatively consistent across subpopulations of race, ethnicity, 
and gender, and appeared to provide independent predictive 
value across all groups rather than acting as proxies for a 
demographic group.
    Top officials at the Consumer Financial Protection Bureau 
(CFPB) also recently announced the results of the Bureau's data 
analysis conducted in connection with its no-action letter to 
Upstart Network. Upstart's underwriting model uses a range of 
data and machine learning in making credit underwriting and 
pricing decisions. The agency found that the company's tested 
model approved 27 percent more applicants than the traditional 
model, and yielded 16 percent lower average APRs for approved 
loans. It also showed no disparities that the CFPB found to 
require further fair lending analysis under the company's 
compliance plan.
    These are just some examples of how financial services 
companies are using consumer data responsibly to provide better 
financial services for the benefit of consumers.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Pozza can be found on page 
54 of the appendix.]
    Chairman Lynch. Thank you very much.
    I now yield myself 5 minutes for questions.
    One of the most helpful books in this area is a book 
called, ``The Age of Surveillance Capitalism,'' by Professor 
Shoshana Zuboff. I think she is at Harvard. She talks about how 
all of these platforms are soaking up what she calls behavioral 
surplus, everything we do, what we read, who our friends are, 
how we drive. Our cars are now hooked up. Some insurance 
companies are actually monitoring our driving so they know when 
you are driving like a nut to get your kids to school in the 
morning, and they jack up your rates subsequent to that.
    One of the things that she pointed out was the pernicious 
terms of agreement that a lot of these apps have, that they 
might be framed as privacy agreements, but they are actually a 
lack of privacy agreement. In other words, you give away your 
privacy. In order to get on that site and get access, you 
click, ``I agree,'' to very long, very complicated terms of 
agreement, an access contract. And I have a few of them here.
    Mint, which is a somewhat popular financial management 
tool, I scrolled down that to see what I had agreed to, to get 
on that site--37 pages long, 11,312 words. Ridiculous.
    Venmo, which is really popular, I use that on occasion. I 
just clicked, ``I agree,'' because I couldn't--13,196 words, 40 
pages, and really dense legalese. I am an attorney, and it was 
tough to get through.
    Qapital, with a ``Q,'' that is a savings application--
almost 10,000 words, 10 pages, but really, really dense.
    Dr. Kamara--actually, for any of you, I think you all get a 
sense of this. How do we instill in consumers the knowledge of 
what they are agreeing to in terms of clicking, ``I agree?'' I 
have two young girls. One is in college, and one is just 
graduating college. And that iPhone in their life is just 
absolutely necessary. So, they are going to click, ``I agree.'' 
I just know they are. Like millions of other American kids and 
kids all around the world, they are just going to--in order to 
get on that site, you have to click, ``I agree,'' and you have 
to let them take your data and resell it.
    How do we convince consumers of the seriousness of what 
they are doing? And what rules might we put in place to balance 
the scales here so that you don't have to sign away your 
firstborn in order to get access to some of these sites? How do 
we challenge that?
    Ms. Saunders?
    Ms. Saunders. I think ultimately, these are not issues that 
can be disclosed. At the end of the day, I don't really think 
it is possible for consumers to fully understand how their data 
is going to be used or, frankly, have the option. I may 
understand what happens when an employer checks my credit 
report, but if I want the job, I am going to have to say, yes, 
you can check it.
    As use of data becomes more widespread, we are not going to 
have the choice. I, too, have spent some time looking at 
privacy policies, and I thought I was a relatively 
sophisticated consumer, but I can't understand them. And even 
if you simplify them, even if you use the model form, at the 
end of the day, what does it mean, well, we only use your data 
to the extent necessary to provide our service? I don't know 
what that means.
    I think at the end of the day, people need to have 
confidence that the data is going to be used in ways that 
people would expect, that would be logical for the service at 
hand, that a minimum amount of data is being used. And that is 
some of the efforts that FDX is undertaking to try to figure 
out use cases. They don't have--
    Chairman Lynch. All right. Thank you. I only have 45 
seconds left.
    Dr. Kamara, so does that mean we have to basically 
surrender all our data in order to just--we lose control of all 
of our data and that is just a fact of life?
    Mr. Kamara. No, it doesn't--it is not required. We have 
technology. We have ways of designing apps and services so that 
consumers don't have to give up their data, so that services 
can be provided without having to see raw data. This is 
technology that has existed for about a decade that is 
practical today, but because companies never really had an 
incentive to improve their privacy practices, it has been 
underinvested in, but it is not necessary.
    Chairman Lynch. Thank you.
    Dr. Gilliard?
    Mr. Gilliard. The onus should not be on the consumer to 
ensure that they are not being exploited.
    Chairman Lynch. Okay. My time has expired.
    I am going to yield to the ranking member, Mr. Emmer, for 5 
minutes.
    Mr. Emmer. Thank you, Mr. Chairman. And thanks again to 
this great panel.
    Mr. Cardinal, does the average consumer utilizing fintech 
services know to what extent their financial and personal data 
is being stored and shared?
    Mr. Cardinal. Let me take that in a couple of different 
ways. Our key principles are control, access, and transparency, 
and I want to talk about transparency. The idea that a consumer 
should know what data elements they are sharing, for what 
purpose, and for what duration, is key to what we are doing. 
And as NCLC pointed out, I think that is a driving principle.
    Customers should be able to make an informed decision about 
what data they are sharing, whether they are trying to get a 
discount at the grocery store or for other purposes. At the end 
of the day, it is their data. The customer should remain in 
control, and an informed consumer, I think, makes the whole 
industry better.
    Thank you.
    Mr. Emmer. Yes, but they don't know. At the end of the day, 
they don't know how much of it is being taken and how much of 
it is being shared.
    Mr. Cardinal. I believe if you disclose exactly the 
purpose--I want to file my taxes and I am going to download my 
tax forms, I think that is fairly clear. To the extent we can 
disclose it, we can do that initial piece. Now, where it goes 
from there after, we really can't be responsible, I think, as 
Ms. Saunders pointed out.
    Mr. Emmer. So when consumers--Mr. Cardinal, let's just 
continue on this. When consumers authorize screen scraping by 
giving away their user name and password, what risks are they 
exposing themselves to?
    Mr. Cardinal. Again, we are moving away from screen 
scraping. The whole idea is to get away from that, get away 
from what we call held-away IDs and passwords, because if you 
don't share it, you can't lose it, the whole idea of reducing 
the whole risk envelope.
    So screen scraping, again, also is access, as I mentioned 
in my testimony. You have access to the entire scope of data, 
it is visible to the naked eye, whereas the use cases that we 
are developing minimize data, and the NIST standards that the 
government follows stress data minimization as a way to reduce 
risk. So we are trying to go to an API with defined-use cases 
with minimized data and without held-away credentials to really 
reduce that entire risk surface for everybody.
    Mr. Emmer. Thank you.
    Ms. Saunders, how does the Gramm-Leach-Bliley Act define 
financial institutions? Do fintech companies, data aggregators, 
and data brokers clearly fit the definition?
    Ms. Saunders. I am not an expert on the Gramm-Leach-Bliley 
Act. I do know that it covers traditional financial 
institutions such as banks and credit unions and also some 
other entities that are not banks and credit unions, but it is 
not nearly broad enough to cover the wide range of companies 
that do have our data and implicate data security and privacy 
concerns.
    Mr. Emmer. Should a consumer be able to make portable all 
of the data available to them via their native online banking 
account or is that on their paper statement to a third-party 
service provider, or do you believe that only a subset of that 
data may be leveraged by a consumer?
    Ms. Saunders. I think it really depends on the use case. I 
think one potential future use of accessing account data would 
be to make it easier to port over your data to a new account, 
comparison shop and to--it is very difficult to unenroll in all 
of your online bill pay. On the other hand, there are uses 
today where people should be able to use it for cash flow 
underwriting and other things.
    Mr. Emmer. Okay. For the panel, I am a huge supporter, as I 
believe probably everybody up here is, of individual privacy, 
and I have some concerns about some firms' data hygiene 
practices. What do you see in the next 5 to 10 years in terms 
of how big data is going to transform financial services? Any 
of you may answer.
    Or was that too broad? Was that the ocean? And if that is 
too difficult, let's narrow it. Do smaller banks have the 
resources to comply with the new regulatory regime under data 
privacy laws like the Gramm-Leach-Bliley Act? And maybe this is 
for Mr. Pozza?
    Mr. Pozza. I would say that what experience with the 
California Consumer Privacy Act is showing is that smaller 
companies in general are having difficulties with compliance. I 
think that the law itself has some ambiguities and is not 
written in a very straightforward manner, and illustrates the 
problem of regulating around this space in a broad brush, and 
the smaller companies are incurring compliance costs.
    Mr. Cardinal. Ranking Member Emmer, I would like to add on, 
since the FDX API is royalty-free, it levels the playing field. 
A mom-and-pop credit union can offer the same access to data as 
a top-four universal bank. And a lot of these credit unions 
rely on core processors, and one of them is on our board. We 
are working with the other ones. So once the cores get onboard 
and offer this API, a lot of the credit unions in your 
district, and in my district, will be able to offer this same 
type of royalty-free access that is secure and is much more 
reliable than screen scraping.
    Mr. Emmer. Thank you. I see my time has expired.
    Chairman Lynch. The gentleman yields back.
    The gentleman from Utah, Mr. McAdams, is now recognized for 
5 minutes.
    Mr. McAdams. Thank you, Mr. Chairman, for holding this 
hearing. And thank you to the witnesses for your testimony 
today.
    I am fascinated by this topic and the myriad of connecting 
issues related to it--big data, data security, privacy, data 
ownership--and how all of this interacts with innovations in 
financial services, as well as potential risks to consumers, 
because I do see great potential benefits but I also recognize 
the potential risks in terms of data security, and 
discrimination in lending, for instance, among other issues.
    So first question, Mr. Cardinal, I know in the various 
testimonies or even in many of the conversations that occur in 
Congress, definitions matter, and being specific with what 
companies we are referring to, that also matters. Can you 
explain or maybe even highlight the difference between a data 
aggregator and the role that they play in the financial 
services industry and the role a data broker plays?
    Mr. Cardinal. Thank you for that question, and I appreciate 
the chance to straighten out or expand upon some ambiguity in 
the press.
    A ``data aggregator'' is simply a data service company that 
allows any third party that is permissioned to reach out and 
extract, with consumers' consent, data from a variety of 
sources, whether it be a bank, a brokerage, or an investment 
company. A ``data broker'' is someone who is gathering data, 
harvesting quite a bit of data, often without the customers' 
knowledge or even consent. So, there is a clear difference, and 
that has to do with customer awareness and permission.
    Mr. McAdams. How do the regulatory or legal obligations of 
those two entities differ?
    Mr. Cardinal. I will leave the technology standards bias. I 
really couldn't comment on that part. I'm sorry.
    Mr. McAdams. Do any of the other witnesses have any 
thoughts on that?
    Okay. I just want to maybe ask a further question. Does 
whether the data is consumer-permissioned or even revocable 
access change how we should view the data and the entities 
holding or transmitting the data? Because that seems to be 
fundamental in the distinction between those two, the data 
aggregator and the data broker.
    Mr. Cardinal. You are spot on. Consumers should be in 
control. We are all here to serve the consumers, and the idea 
that they should have clear knowledge of what data they are 
sharing, for what purpose, and for what duration--and I will 
give you an example. I am a CPA by trade, and the idea that, 
yes, I want to share my tax forms with TurboTax through April 
15th is very clear and very conspicuous versus data that I 
don't even know is being used.
    Mr. McAdams. I guess that leads to my next question, and it 
would be for anybody on the panel.
    I have an iPhone and have numerous apps and websites that I 
use, some infrequently, and some on a regular basis. And I am 
positive that I have given access to various bank accounts or 
financial data, other personal data, to dozens of different 
companies. That is probably a conservative estimate. But as a 
consumer, I honestly don't know and probably can't even easily 
locate who has access to my data and how it is being used right 
now. I don't even know how long ago I may have given access or 
how long that access may be for.
    So how should we as policymakers think about this issue? 
And are there ways, either through the government or through 
private sector standards that could better promote consumer 
awareness and/or consumer control over this information?
    Ms. Saunders. I can address that.
    Mr. McAdams. Thank you.
    Ms. Saunders. Ultimately, I think that we need to have 
rules that data is used in ways that consumers expect, so that 
you don't have to decipher how it is going to be used. I think 
permission should also expire after 1 year.
    I was surprised when I got an email alerting me to some 
access for something I signed up for years ago. So often, if 
you apply for credit, you think that is going to be used at the 
moment of the credit application, and you don't realize it may 
be used on an ongoing basis. There may be uses that you just 
have no idea about.
    So, minimizing the amount of data, requiring it to be used 
in ways that are logical for the use, and putting an end point 
so consumers can have control and decide whether to reauthorize 
the use or not.
    Mr. McAdams. And is that a place that we should look at as 
policymakers, as Members of Congress, to ensure that those 
standards are equal and fair and apply across the industry?
    Ms. Saunders. Yes, I think so. There are voluntary efforts 
to address principles like that, which is great in the current 
situation, but ultimately, we want this applying across all 
uses and not just those who choose to comply.
    Mr. McAdams. Mr. Kamara?
    Mr. Kamara. I would just like to add, the principles that 
Ms. Saunders describes can be embedded in the technology. They 
can be embedded cryptographically so that data is always 
protected mathematically. So it is possible to design these 
services and these apps so that your data will never be seen by 
any of the data aggregators or financial services that need it 
in order to build their products.
    Mr. McAdams. Dr. Gilliard?
    Mr. Gilliard. As Chairman Lynch noted, this is sort of the 
age of surveillance capitalism, so most companies generally 
operate from a collect-it-all, keep-it-as-long-as-possible 
perspective. And, again, I think that there do need to be more 
regulations, because it is an unfair burden on consumers to 
take weeks or months to read the dense kind of language that is 
in these policies.
    Mr. McAdams. Thank you. I see my time has expired. I yield 
back.
    Chairman Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Luetkemeyer, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman. And I thank the 
panel today. It is quite interesting.
    Mr. Pozza, your testimony states that the California 
attorney general is currently accepting comments on rules to 
enforce the California Consumer Privacy Act (CCPA), and those 
rules are scheduled to go into place in July of 2020. However, 
the CCPA's date of enactment is January of 2020, so they are 
getting the rules after the enactment. I am not sure how that 
works, but hopefully you can explain it to me here in a second.
    In addition, you highlight how financial institutions are 
unclear what personal information they possess is covered by 
this vague law. Lastly, I heard from financial institutions 
that some provisions of CCPA are in direct conflict with other 
State laws regarding data security and privacy.
    All that being said, I have a simple question: How are 
financial institutions supposed to comply with CCPA?
    Mr. Pozza. I think it has been difficult for financial 
institutions to navigate CCPA compliance. As I point out in my 
testimony, and as you state, the law has an effective date of 
January 1st, but the regulations are still being finalized. We 
are in the middle of a comment period for the draft attorney 
general regulations, which would go into effect, at the latest, 
on July 1st. This means there is a current set of rules that 
are themselves a bit unclear. They are in the law, and then 
those can change or become more detailed or even be expanded, 
depending on what the attorney general does in the regulations.
    That makes it very difficult for financial institutions and 
other companies to figure out how to essentially manage their 
data practices, because this is really a broader issue of sort 
of data governance. It is what obligations are you going to 
have to consumers about their certain data to respond to 
certain requests and how you deal with it with third parties.
    So, these are difficult issues to go through and think 
ahead to how the law could be changing over the next--
obligations could change over the next 6 months.
    Mr. Luetkemeyer. Thank you for that.
    I know that all of this data--the world of technology is 
wonderful. It allows us to do so many wonderful things and 
speed things up and give people more access to their own 
information, but it is also scary from the standpoint of what 
can happen to it. The data aggregators are really something 
that I am very concerned about.
    As somebody who comes from the other generation--I still 
have a rotary phone, by the way. So for those of you, any 
millennials in the audience, and maybe some of you on the 
panel, if you can figure out how to do a text message on that, 
I would sure appreciate it. I'll be glad to see you after this 
hearing.
    But I was discussing it the other day with an entity who 
lost hundreds of millions of dollars because of the data 
aggregator doing some nefarious things. They had access to 
individuals' information because they had given it to somebody 
along the way, whether--Mr. Cardinal, you talked about tax 
preparers a while ago--and suddenly, they use a third party to 
be able to access all that. And now, they can go in and they 
can scrape the screen and get--and nightly, what this entity 
was telling me, was that 80 percent of the transactions that go 
on in there overnight are from data aggregators. They have had 
to up the amount of computer power in their business to be able 
to accommodate the data aggregators that are coming in every 
night and scraping all the information off. It is not their own 
customers; it is the date aggregators.
    This has gone way beyond access to information. And so, 
while I am not a big fan of regulation, there is a whole system 
out there right now that looks to me to be out of control, and 
we are going to have to figure out how to put the genie back in 
the bottle so we can protect our consumers and allow them to 
access their information.
    I know you have talked at length here about this, but do 
you want to elaborate a little bit more on that, Mr. Cardinal?
    Mr. Cardinal. Yes. Thank you for the opportunity to address 
that. That was part of the reason FDX has stood up. And we have 
banks, brokerages, investment firms, data aggregators, and 
fintechs, the whole ecosystem working together on this issue. 
Nobody likes screen scraping. It is inefficient. It is 
expensive. It can lead to inaccuracy in data occasionally.
    The API is much more secure, and my colleagues here have 
mentioned that several times. You limit and control the amount 
of data. It is an order of magnitude and more efficient.
    The hardware costs alone that you referred to come down by 
an order of 100X, and it makes the front-door defense also a 
lot easier by ceasing screen scraping. That means anything 
hitting your front door should only be human. So, that helps 
your cyber posture. It helps your data risk posture. It helps 
your hardware cost posture. And again, it limits the data out 
there in play and, of course, it removes IDs and passwords held 
away. This is the end state that everyone is working toward, 
whether you are a bank or a brokerage or you are an aggregator 
or a fintech.
    Mr. Luetkemeyer. The chairman asked a while ago the 
question about, how do we get consumers to understand the 
seriousness of this. We have had former Director Cordray of the 
CFPB in this very room, and he indicated that the CFPB was 
collecting 80 percent of all the credit card transactions in 
the country. They are collecting that data. That should scare 
the bejeebers out of every single person here today.
    My time is up, but I want to thank the panel for being here 
today. You have been very informative, and I sure appreciate 
your efforts. Thank you very much.
    And I yield back.
    Chairman Lynch. Great questions. Thank you.
    The gentleman from Florida, Mr. Lawson, is now recognized 
for 5 minutes.
    Mr. Lawson. Thank you, Mr. Chairman. And I welcome the 
witnesses today.
    Are there any examples in the market today to which 
consumers and our small businesses might not be permitted to 
access the financial data which might impact their products or 
services? This is for anyone who cares to respond.
    So, there is none?
    Tell me this, how does big data collection impact consumer 
profiling?
    Ms. Saunders. I would say we don't know, and that is the 
problem. We have all sorts of data that is fed into big black 
boxes and algorithms, and we don't know how it is being churned 
and correlated and conclusions are being drawn, and we really 
don't understand how it is being used.
    Mr. Lawson. Okay. A little bit of a follow-up, with the 
increase of big data comes an issue of security. Can you share 
how consumers will know who has access to their data and how 
the information will be shared?
    Ms. Saunders. Again, I don't think it is something that 
consumers are equipped to know, and we shouldn't put that onus 
on the consumer. We should have rules about what can be shared 
and rules about how data is held securely and not put it on 
consumers to figure out who is holding their data securely or 
not.
    Mr. Lawson. Mr. Cardinal?
    Mr. Cardinal. We are seeing some innovation in the industry 
around making the data sharing more transparent. If you look at 
Wells Fargo's control tower, you can see--and I will pick on 
TurboTax again, because I am an accountant and I like to do 
that. You can see, yes, I have permission from TurboTax to pull 
my data down, and you see other firms standing up dashboards 
where consumers can see very clearly whom they permissioned, 
and it gives them the ability to kill that connectivity at any 
time. So, you have firms like USAA or Bank of America or 
Citibank, and they are also standing up those dashboards 
because they want to inform consumers well and give the 
consumer the ability to kill that connectivity at any time.
    Mr. Lawson. Mr. Gilliard?
    Mr. Gilliard. As Ms. Saunders has said, there is very 
little ability--I know a lot of computer scientists, 
cryptographers, people in privacy and surveillance, and even 
people with advanced skills, and it is very difficult for them 
to know the answer to that question. But the other thing that 
is important--and Dr. Kamara alluded to this--it is very hard, 
and it is, in fact, impossible for people to know how that data 
is combined, processed, repurposed, and what kinds of 
correlations or connections will be made by companies who do 
this.
    As Dr. Kamara said, so there is some correlation between 
calling your mom and paying your bills. So, only the people 
inside that system, and sometimes not even them, would know 
that correlation exists. People outside of it have absolutely 
no ability to know that.
    Mr. Lawson. Okay. Mr. Kamara?
    Mr. Kamara. I would also add that a lot of this data that 
is collected is used in ways which we really don't understand, 
and that the designers may not understand, because the machine-
running algorithms can be inscrutable. But also, this data 
oftentimes is kept even after the service has been rendered. 
And the data is kept longer and it is kept to improve the 
systems of the companies that are providing these services, but 
we don't necessarily know how long this data is kept and for 
what purpose.
    Mr. Lawson. Okay. And whether this is appropriate or not, 
but recently in this committee, we talked about debt 
collectors. So, when there is outstanding debt and the data 
then is transferred over to the debt collector, how long are 
they able to keep the consumer information? Do you know that, 
Ms. Saunders?
    Ms. Saunders. I am not aware of any limits. And that was 
one of our concerns about the debt collection proposal. If debt 
collectors are texting people through WhatsApp, and Facebook 
actually sees those messages, are they going to use that data? 
Are they going to target people for debt settlement scams and 
other problems? We don't know what information gets collected 
and how it gets turned around and used.
    Mr. Lawson. When consumers sign affidavits, let's say 
getting a loan or have a substantial debt--and my time is about 
to run out--is there always something that they sign at the 
bottom which allows them to transfer all of the information to 
other collectors?
    Ms. Saunders. I think that information may be in the fine 
print. But consumers don't really know what is going to happen.
    Mr. Lawson. So it is as if the fine print is so small until 
people just really want to get credit or anything they want, 
forget about reading it until later on.
    Ms. Saunders. When consumers take on a loan, they don't 
expect to be hit by a debt collector. They take out a loan 
expecting they are going to repay it. And what happens later on 
is something that people aren't focused on at the moment.
    Mr. Lawson. Okay. I yield back, Mr. Chairman.
    Mr. Lynch. I thank the gentleman.
    The Chair now recognizes the gentleman from Arkansas, Mr. 
Hill. Welcome back. And you are recognized for 5 minutes.
    Mr. Hill. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    This is such a fundamental hearing, I think, for all of us 
in fintech, because big data is the fundamental building block 
for financial services now, and the providing of health 
services now. So, getting this right is very important.
    And I have said since the beginning of our work in this 
Congress, that we can't really have a digital future in health 
or financial services or any other endeavor unless we get the 
data piece right so that we as individuals own our data, it is 
our data and we--as our panelists talked about, and we 
permission that data use individually for a health provider or 
financial services provider to provide us services, and that we 
also have an authentication system that values cyber 
protections and privacy and is not tied to a user name and my 
pet's name and my birthday year.
    And all about that, we have heard this year that that is 
fundamental. So we control our data. It is our personal data. 
We use that data with our financial services providers. In 
turn, it is authenticated in a way that protects privacy and 
cyber risk. And those are just critical.
    This gets to my friend from Missouri's line of questioning 
about--I want to talk as well about California and what we see. 
But we have one company in Arkansas that is called Acxiom, and 
for 50 years, they have sort of been a data bank for financial 
services companies. They have worked hard to do that in an 
ethical, secure, and legal way to protect consumers along the 
way. They have innovated there. They have used a lot of that 
data with financial services. They are now working on the 
California privacy law and how it can be implemented for their 
clients.
    And so a question I have about California, probably 
following up on Mr. Luetkemeyer, Mr. Pozza, what do you think 
are the biggest shortcomings in that statute?
    Mr. Pozza. I think one of the biggest issues around it is 
the sort of lack of clarity around the specific obligations, as 
I talked about before. A second piece of it is the way it 
treats financial institutions. It carves out data that is 
subject to Gramm-Leach-Bliley (GLB), but it does not carve out 
financial institutions, which means that it is layering another 
level of unclear regulation on top of data that is treated a 
certain way under GLB.
    So what that means for a financial institution is they have 
to parse through, is this particular piece of data covered 
under GLB; and, if not, is it then covered under CCPA if it is 
related to California? That, I think, is confusing both to 
consumers and to companies to have data treated different ways 
under this piecemeal approach.
    I think, in thinking about California, it is also 
instructive to look at the chance of other State legislation 
happening over the next year, and certainly there will be lots 
of bills introduced. So there is also a level of uncertainly 
there looking not just at what is California going to look like 
in a year, but what is any other State going to look like and 
is it going to build on top?
    Mr. Hill. I support a national standard for privacy, and we 
have tried that here. I know Mr. Scott and I talk about this on 
a regular basis. We have to create a consensus to do that, and 
I think it is an important policy, as I say, not just in 
financial services, but across the government.
    Mr. Cardinal, you suggest that APIs are critical to 
protecting this authentication piece and improving privacy. So 
in your work, are 100 percent of the consumers in your 
portfolio all covered by APIs?
    Mr. Cardinal. We are getting there. We are at--
    Mr. Hill. What percent are covered by APIs?
    Mr. Cardinal. I would say, at this early stage, we just 
have raw numbers. I am not sure what the actual overall 
percentage is. I would say probably under a quarter. We 
surveyed our members and they indicated that 5\1/4\ million had 
made the switch from old screen scraping tech to the new APIs, 
and they have estimated we will be at 12 million by April of 
next year. It is hard to know what the entire population is.
    Mr. Hill. Do you think the bank regulators, the financial 
services regulators in the investments and banking should 
require all financial services data be covered by an API and 
not permit any form of screen scraping?
    Mr. Cardinal. We are a tech standards body. We are not 
going to comment on policy regulation, although we do inform 
the regulators on our progress and what we are doing on a 
voluntary basis. We were here just a few weeks ago, talking to 
the OCC, the CFPB, and Treasury, and they--
    Mr. Hill. But it is a best practice, right? An API is a 
best practice?
    Mr. Cardinal. The Treasury said last year that APIs 
represented a big risk reduction over screen scraping, and we 
agree with them.
    Mr. Hill. Thank you, Mr. Chairman. I yield back.
    Chairman Lynch. The gentleman yields back.
    The Chair now recognizes one of our most active and 
thoughtful members on this task force, the gentleman from 
Georgia, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you. Thank you very much, Chairman Lynch, 
and I appreciate those kinds words that you had to say, and I 
appreciate your leadership on this.
    Mr. Hill is right, big data and privacy are critical to 
fintechs. Our technology now is moving at warp speed. Every 
day, it seems like there is something else we have to adjust, 
and I will tell you why: It has been 20 years since the 
enactment of Gramm-Leach-Bliley, which is the law predominantly 
governing the treatment of big data and privacy protection in 
all of the financials here. But since that time, we have seen 
extraordinary technological development that has changed the 
way consumers interact with financial services. And just in 
recent days, members of the Senate's Committees on Commerce, 
Science and Transportation, and Judiciary have released a set 
of privacy and data protection principles to underpin a broad 
privacy framework. And I am sure you all are probably aware of 
what the Senate has done. But among these principles are the 
minimization of the data collected, limitations on the way data 
can be shared between service providers and third parties.
    So thinking about the way that our financial technology has 
evolved, and understanding how the value of data itself has 
increased, how can our great financial technology grow in a way 
that incorporates key privacy protections?
    Mr. Cardinal, let me start with you.
    Mr. Cardinal. Thank you for the question. And I go back to 
our five core principles of control, where you put the customer 
in control of their data; transparency, so they know and see 
what is going on; and in a real way, traceability, access, and, 
of course, security.
    Earlier, I talked about the National Institute of Standards 
and Technology (NIST). NIST sets a lot of the government 
framework for data control and cybersecurity, and one of their 
core principles is data minimization. And good risk governance 
mandates data minimization, and we have that in our security 
principles as well. And the use cases we are defining set out 
that you should only return the data necessary to achieve a 
particular purpose, for example, again, a tax return or doing 
budgeting. Only get the data you need to do that one thing.
    So those five key principles really guide what we do, and I 
think they fit hand-in-glove with the points you raise.
    Mr. Scott. Okay.
    Mr. Kamara, in recent years, we have seen two major pieces 
of privacy legislation pass in California and in the European 
Union. These two pieces of legislation appear to shift towards 
what we call a bill of rights model in which a consumer can 
have a certain expectation of what privacy protections exist. 
Do you agree with this assessment?
    Mr. Kamara. Yes, I do. I also think that the excitement 
around financial technologies is great, but what I would like 
to see is as much excitement around privacy technologies. APIs 
are definitely an improvement over screen scraping, but I think 
we can still do better. We can bring minimization. We can 
minimize the amount of data collected down to zero if we invest 
in the right technologies.
    Mr. Scott. In your opinion, in these two areas where this 
legislation impacted, how would you assess their progress?
    Mr. Kamara. I am a computer scientist. I am a 
cryptographer. So, this is not exactly what I work on every 
day. I think, from my vantage point, one of the benefits is 
that it is forcing industry to actually have to put in real, 
practical technological measures to protect consumers' privacy, 
and I think that is a very positive outcome.
    Mr. Scott. And do any of you feel, in addition to you, Mr. 
Kamara, that any challenges have arisen with the implementation 
of these laws that may be helpful to us and instructive on a 
national basis?
    Mr. Kamara. I think there are surely challenges to 
implementing any policy, but I think these challenges are 
surmountable. We can use technology to do incredible things. We 
can use technology to provide privacy as well, so--
    Mr. Scott. Do you feel comfortable that we are--
    Chairman Lynch. The gentleman's time has expired.
    Mr. Scott. Thank you.
    Chairman Lynch. I thank the gentleman.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Davidson, for 5 minutes.
    Mr. Davidson. Thank you, Mr. Chairman.
    This is an exciting time, because not all the time in this 
room do you have a near-uniform sense of what ought to be done. 
I haven't heard anyone say that the status quo with respect to 
privacy is just great. Everyone has said that it is broken, and 
everyone has said that there is a need to fix it.
    I just listened to Mr. Scott and Mr. Hill speak about their 
common ground that they shared in terms of a Federal approach. 
We haven't yet seen that bill and, unfortunately, this 
committee doesn't have full jurisdiction over everything. But 
what does have full jurisdiction over privacy? We don't need a 
new bill of rights with respect to privacy. I don't think there 
is an expiration data on the Fourth Amendment. Let me read it 
for you:
    ``The right of the people to be secure in their persons, 
houses, papers, and effects, against unreasonable searches and 
seizures, shall not be violated, and no Warrants shall issue, 
but upon probable cause, supported by Oath or affirmation, and 
particularly describing the place to be searched, and the 
persons or things to be seized.''
    This was originally a restriction on the Federal Government 
doing these things but, of course, as we know, the Fourteenth 
Amendment ruled that out through all of the States. And I 
believe that Louis Brandeis in Griswold v. Connecticut 
expounded upon this. Unfortunately, what we have seen is a 
retrenching on the Fourth Amendment through a long period of 
time, both with respect to the government, with surveillance 
powers massively expanded with the Patriot Act, with renewed 
efforts to do that with ill-conceived ideas like the Corporate 
Transparency Act.
    And then we have seen, really over the past 30 years, as 
technology has gone around, most of the billionaires in Silicon 
Valley and, frankly, Mr. Bloomberg, have accumulated their 
wealth by monetizing data. It is quite valuable. In fact, it is 
more valuable than financial transactions. We do have a small 
segment carved out by Gramm-Leach-Bliley, but we are seeing 
even more fragmented. We have different standards that apply to 
different entities.
    When a bank collects credit card data, for example, we see 
different things than, say, Google Pay. One of my colleagues, a 
Member who gives great advice to me, recently pointed out that 
he purchased an airline ticket using Google's product Chrome. 
And Google, being the great customer service entity that it is, 
decided that they should store that credit card information in 
Google Pay. It had nothing to do with Google Pay he had no 
intention of signing up for Google Pay. It is all just part of 
the great customer experience.
    And I am sure that is in the fine print somewhere--I don't 
know how many pages or words are contained in Google's 
documents or how many times they are updated. I am sure we have 
all read them, right, printed them out, and checked each phrase 
before we clicked, ``accept.'' And we can all take solace that 
when they went public, they promised not to be evil, right? But 
we see the other thing. They are going to monetize.
    So when we talk about data minimization, Mr. Cardinal, you 
spoke of data minimization. You could minimize your data or at 
least attempt to. I only meant to share this with the airline, 
my credit card, when I entered it; or I only meant to share my 
health records with my health provider, yet Google has found a 
way to sell it.
    Going down the panel, do people believe consumers should 
have to give consent for transference of that data to third 
parties? Just yes or no, please?
    Ms. Saunders. It should not happen. It should not happen in 
ways consumers would not expect. If you didn't expect Google to 
keep your credit card, they just shouldn't do it.
    Mr. Davidson. Thank you.
    Mr. Kamara. I think that would be the minimum standard, 
yes.
    Mr. Davidson. Thank you.
    Mr. Gilliard. Absolutely minimum standard.
    Mr. Davidson. Thank you.
    Mr. Cardinal. Someone has to consent.
    Mr. Davidson. Thank you.
    Mr. Pozza. I think, taking out the aspect of a specific 
company, that there is--the consumer cannot be deceived under 
current law about what is going on with the data, and then if 
you are thinking about approaching it from, are you going to--
    Mr. Davidson. So they can't lie, cheat or steal, or deceive 
them. Right now, the problem is no one really enforces it, 
right? Google promised they weren't going to track you with 
their location services; and in theory, since they said they 
weren't going to do that in their terms of service, there would 
be a way to do it. The reality is that they are so 
sophisticated, the average consumer can't know whether they 
have stopped doing it, and the regulator right now would be the 
Federal Trade Commission, and they clearly do not have a way to 
monitor whether the companies are complying with the terms of 
service.
    In the financial sector, we have regulators that do that. 
And at subsequent hearings, I would hope to get to who should 
actually oversee the regulatory framework in the United States 
of America, because conformance is not going to happen in the 
stated nature. It leads towards decay and abuse, unfortunately, 
and it is way past time for us to update our laws.
    My time has expired, and I yield back.
    Chairman Lynch. I thank the gentleman. The gentleman yields 
back.
    It is my pleasure to recognize the gentlewoman from 
Michigan, Ms. Tlaib, for 5 minutes.
    Ms. Tlaib. Thank you, Mr. Chairman.
    There are going to be very few times that you will see a 
lot of us agree, especially on issues that are so critically 
important to civil liberties, civil rights issues, but in this 
particular issue, I think you can find a lot of bipartisan 
support about the great concern in protecting our residents at 
home, their privacy, and so forth.
    I want to kind of take this in a little different 
direction. I don't know how many of you all know, in Detroit, 
there is over $1 million spending on a facial scanning system 
called Project Green Light, which enables police to identify 
and track residents, capturing hundreds of private and public 
surveillance cameras installed at parks, schools, health 
centers, gas stations, women's clinics, fast food restaurants, 
and even addiction treatment centers. It has been expanded to 
also even include churches and low-income housing.
    Overall, this aggressive City-wide surveillance system has 
reached more than 500 of our City's businesses and institutions 
and community organizations.
    Ms. Saunders, are citizens even aware that they are being 
recorded and that their images are being captured?
    Ms. Saunders. No, I am sure that they are not.
    Ms. Tlaib. What are some of the implications of this 
technology being used in low-income housing specifically?
    Ms. Saunders. This is not an area of our expertise, but I 
am sure people would be concerned to know that they are being 
tracked and that their individual identities are in government 
databases being used in ways that they wouldn't expect.
    Ms. Tlaib. Dr. Gilliard, do you have anything to comment 
about this?
    Mr. Gilliard. I do. I think particularly for marginalized 
populations, this is especially onerous, because they are 
already subject to lots of surveillance in their daily lives 
that they are not able to escape. They don't have the means 
either to avoid this kind of surveillance, but also, maybe 
there are questions of if they are on public assistance, have 
they had run-ins with law enforcement, things like that. And 
that level of scrutiny on anyone is harmful, but I think the 
physical, emotional, and psychological effects on people to 
think that they are constantly being watched or to know that 
they are constantly being watched, I think is very pernicious.
    Ms. Tlaib. These are for-profit entities coming to sell to 
cities like Detroit, and other communities of color, technology 
that hasn't even been tested properly, and is flawed. Studies 
over and over again have shown that it is flawed. I think the 
ACLU even did a sample of Members of Congress, and I believe 
they misidentified the majority of the folks who are in there, 
especially the Brown/Black Members within the United States 
Congress.
    Given that Black men, and boys especially, are already more 
than twice as likely to die in an encounter at the hands of 
police, there are really strong implications of what this would 
mean, but also the fact that these are low-income families, 
people who are being surveilled.
    One of my residents told me the green light that flashes--
they actually put a green light outside of their building. And 
when I asked the mayor about this, he said, ``What do you 
mean?'' I said, no, just you are telling this person that they 
are unsafe. You are letting the world know, as people are 
passing by, don't come here. It is unsafe. It is very 
counterproductive to trying to make people feel safe. It is 
saying, if you are poor, you deserve to feel less safe and to 
have kind of the stigma to be on you for living in public 
housing.
    Currently, my colleagues, Representative Ayanna Pressley 
and Representative Yvette Clarke, and I introduced the No 
Biometric Barriers to Housing Act, which would prohibit 
completely any use of real facial recognition technology in 
Federal housing.
    What would you all feel, is this something that you all 
would be able to support?
    Mr. Gilliard. Absolutely. I think more surveillance does 
not equal more safety. I think imperfect surveillance is bad, 
but perhaps perfect surveillance is even worse.
    Mr. Kamara. Yes, absolutely. Biometric data is very 
intrusive. It is very difficult to store and protect. If it 
gets leaked, if there is a data breach, biometric data is very 
hard to revocate. So, that is another issue. And a lot of these 
surveillance databases are connected with DMV data. They are 
connected with other datasets as well. There are also a lot of 
problems with, if you end up in one of these databases, it is 
very difficult to get off of it. That is another issue as well. 
So, absolutely.
    Ms. Saunders. That particular bill is a bit outside our 
organizational expertise, but as a general matter, we certainly 
are concerned about the collection of personal data about 
people without their consent, and also especially about data 
that may be used differently against different populations. 
And, as you note, there could be mistakes, especially if you 
don't test it for how it works for people of--
    Ms. Tlaib. No, there are actually documented mistakes.
    I know I am out of time, but thank you, Mr. Chairman.
    And thank you all so much for being here to testify.
    Chairman Lynch. Very insightful observations. Thank you.
    The gentleman from Wisconsin, Mr. Steil, is recognized for 
5 minutes.
    Mr. Steil. Thank you very much, Mr. Chairman.
    Mr. Pozza, I would like to dive into some of your 
testimony. The European Union's General Data Protection 
Regulation gives individuals the right to be forgotten. This is 
kind of intuitive as to what this might mean as it relates to 
Facebook, and maybe as it relates to Google. I think where some 
of the struggle comes in is, in particular, financial services 
products, loans, and insurance. I can think of a life insurance 
product where that is very challenging, if somebody comes in 
and asks for the right to be forgotten, but they are the 
beneficiary of someone else's life insurance product. It gets a 
bit complicated.
    Could you comment and provide some insight as to how the 
right to be forgotten and other digital deletions impact common 
financial products? And then, what other implications should 
policymakers be thinking of in this context?
    Mr. Pozza. I think that is a great question. I think that 
the deletion right, as it is sort of known under California, or 
the right to be forgotten, needs to be assessed in a way that 
is contextual. The examples that you point out are the kinds of 
things that maybe under California's law could be business 
exemptions, right? So, it can't just be a broad brush. You 
should be able to delete your data in a way that the business 
can no longer function, or it needs it to use for other sorts 
of analytical tools to make sure that it is not discriminating 
or something like that.
    There are lots of reasons why you would need to cabin 
something like that to be practical in terms of business. And I 
think that goes to just the general approach of being sensitive 
to the business concerns when making and creating these sorts 
of rights.
    The second piece of this is, the ABA recently released a 
report--it is in my testimony--that talks about the way that 
these deletion rights might impact sort of data models that 
would then be incomplete if they're used for things like fraud 
detection. So, again, you could potentially have something in 
the law that carves out these uses where it makes sense to make 
sure that companies have robust access to these datasets so 
they can use things like detecting fraud.
    Mr. Steil. Let me dig in here for a second. In particular, 
as it relates to this, where sometimes you have these 
conflicting regulations, where you are trying to work in 
multiple jurisdictions, and businesses and consumers, I think, 
face increasingly complicated sets of overlapping and 
conflicting rules. As you mentioned in your testimony, GDPR 
affects us since many of the services we are using are offered 
in Europe. CCPA, as you noted, is sometimes overlapping on 
this.
    Could you comment how the complexity impacts businesses and 
consumers and how Congress should respond to the costly and 
complicated overlapping system of regulations?
    Mr. Pozza. I think it is clearly costly for businesses, as 
I have talked about, to have multiple different regimes 
governing different kinds of data. I would also reiterate that 
I think it is difficult for consumers to have these different 
regimes because they don't necessarily have clear expectations 
about how their data will be treated, which is a lot of what we 
talked about today.
    When it comes to looking at something possibly on a Federal 
level, I think the U.S. Chamber has some pretty good principles 
they have outlined that talk about things like a risk-based 
approach and being sort of technology-neutral as much as 
possible and realizing that there are these tradeoffs, that 
consumer control of their information clearly is an important 
value, and that there are other sorts of things, as you point 
out, where it intersects with other kinds of regulations that 
you just sort of need to balance those.
    Mr. Steil. I appreciate your time and testimony today.
    Mr. Chairman, I yield back.
    Chairman Lynch. The gentleman yields back.
    First of all, I would like to thank our witnesses for your 
testimony today and for helping the task force with its work.
    Without objection, the following documents will be 
submitted for the record. We have received submissions from the 
American Bankers Association, the Electronic Transaction 
Association, Fidelity Investments, Finicity, Public Knowledge, 
and Plaid, P-l-a-i-d.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I wish you all a very happy and safe Thanksgiving. This 
hearing is now adjourned.
    [Whereupon, at 11:00 a.m., the hearing was adjourned.]

                            A P P E N D I X



                           November 21, 2019
                           
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
                                [all]
</pre></body></html>
